OIG Investigative Reports, Former Vocational Rehabilitation Provider Sentenced To Prison For Fraudulent Claims Against The Government
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
U.S. Attorney's Office
Southern District of Texas
Tim Johnson  United States Attorney
FOR IMMEDIATE RELEASE
Sept. 4, 2009
www.usdoj.gov/usao/txs
ANGELA DODGE
PUBLIC AFFAIRS OFFICER
(713) 567-9388
FORMER VOCATIONAL REHABILITATION PROVIDER SENTENCED TO PRISON FOR  FRAUDULENT CLAIMS AGAINST THE GOVERNMENT
(HOUSTON) - James Earl Dunn Jr., 39, former owner and operator of Rehab Specialist Inc. (RSI), has been sentenced to 33 months confinement in federal prison by United States District Judge Lee Rosenthal for submitting more than $300,000 in fraudulent claims against the government, United States Attorney Tim Johnson announced today. The sentence was handed down late yesterday evening.
Dunn received contracts from the Texas Department of Assistive and Rehabilitative Services (DARS), formerly known as the Texas Rehabilitation Commission, from funds awarded by the U.S. Department of Education, to provide vocational rehabilitation training to individuals with mental and physical disabilities.
Indicted in May 2007, Dunn pleaded guilty Aug. 12, 2008, to one count of submitting fraudulent claims against the government acknowledging in his plea agreement that during the years 2001 to 2003 he had fraudulently obtained federal vocational rehabilitation funds through DARS by claiming that he was providing employment training and coaching to clients with disabilities when, in fact, the clients were not receiving such training.
"Dunn knowingly and willfully abused his position of trust to steal funds that were supposed to be used to provide needed education and vocational rehabilitation to disabled adults. That is unacceptable," said Mary Mitchelson, acting Inspector General of the U.S. Department of Education. "I'm proud of the work of Office of Inspector General Special Agents, the Texas Department of Assistive and Rehabilitative Services and the U.S. Attorney's Office for holding this man accountable for his fraudulent actions."
Dunn, who has been on bond, has been permitted to remain on bond pending the issuance by the court of an order to surrender to a Bureau of Prisons facility to be designated in the near future.
The investigation was conducted by special agents with the U.S. Department of Education Office of Inspector General and the DARS Investigations Unit. This case was prosecuted by Assistant United States Attorney Quincy L. Ollison.
Top
Printable view
Last Modified: 09/09/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov